U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Alpine Securities Corp. v. Securities and Exchange Commission, No. 21-82
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 19,
2021. The government’s response is now due, after one extension, on September 20, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 20, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0082
ALPINE SECURITIES CORPORATION
SECURITIES AND EXCHANGE COMMISSION

BRENT R. BAKER
PARSONS, BEHLE & LATIMER
201 SOUTH MAIN STREET
SUITE 1800
SALT LAKE CITY, UT 84111
MARANDA E. FRITZ
MARANDA E. FRITZ PC
335 MADISON AVENUE
NEW YORK, NY 10017
ROBERT MARK LOEB
ORRICK, HERRINGTON & SUTCLIFFE
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8400
RLOEB@ORRICK.COM
SEAN MAROTTA
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
SEAN.MAROTTA@HOGANLOVELLS.COM
RUSSELL G. RYAN
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
SUITE 200
WASHINGTON, DC 20006
202-661-7984
RRYAN@KSLAW.COM

